         Office of Inspector General




September 26, 2006

ANTHONY M. PAJUNAS
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

MICHAEL J. DALEY
ACTING VICE PRESIDENT, PACIFIC AREA

KERRY L. WOLNY
MANAGER, VAN NUYS DISTRICT

SUBJECT: Audit Report – Pasadena, California, Processing and Distribution Center
         Consolidation (Report Number EN-AR-06-001)

This report presents the results of our audit of the Pasadena, California, Processing and
Distribution Center consolidation (Project Number 06XG020EN000). The audit was
requested by U.S. Postal Service management and is the first in a series of audits of
Area Mail Processing (AMP) consolidations.

We concluded the workhour cost analysis included in the AMP proposal was supported,
and additional U.S. Postal Service Office of Inspector General (OIG) analyses provided
confirming evidence for the consolidation. However, in the development, approval, and
implementation of the Pasadena AMP proposal, Postal Service management did not
always comply with the processes outlined in policy and some AMP proposal data was
inaccurate, incomplete, or unsupported. We are making three recommendations in this
report.

Management generally agreed with our recommendations and has initiatives in
progress, completed, or planned addressing the issues in this report. Management’s
comments and our evaluation of these comments are included in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation the
recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Tammy L.
Whitcomb, Director, Evolutionary Network Development, or me at (703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Gerard K. Ahern
    David E. Williams
    Steven R. Phelps
Pasadena, California, Processing and                                       EN-AR-06-001
 Distribution Center Consolidation



                                       TABLE OF CONTENTS

 Executive Summary                                                              i

 Part I

 Introduction                                                                   1

     Background                                                                 1
     Objective, Scope, and Methodology                                          2
     Prior Audit Coverage                                                       4

 Part II

 Audit Results                                                                  5

     Workhour, Productivity, and Capacity Data Support the Consolidation        5

     Area Mail Processing Processes Were Not Consistently Followed             8
         Accuracy of Area Mail Processing Data                                 8
         Adherence to Key Processes                                           10
         Postal Service Actions                                               14
     Recommendations                                                          14
     Management’s Comments                                                    15
     Evaluation of Management’s Comments                                      15

 Appendix A. Plant Boundary Map                                               16

 Appendix B. Prior Audit Coverage                                             17

 Appendix C. Fiscal Year 2004 Plant Performance Percentage                    18
             Achievement

 Appendix D. Management’s Comments                                            21
Pasadena, California, Processing and                                                                     EN-AR-06-001
 Distribution Center Consolidation



                                        EXECUTIVE SUMMARY
 Introduction                       At management’s request, the U.S. Postal Service Office of
                                    Inspector General (OIG) reviewed the Area Mail Processing
                                    (AMP) proposal to consolidate outgoing mail processing
                                    operations from the Pasadena, California, Processing and
                                    Distribution Center (Pasadena P&DC) into the Santa Clarita,
                                    California, and Industry, California, Processing and
                                    Distribution Centers (Santa Clarita P&DC and Industry
                                    P&DC). U.S. Postal Service management projected the
                                    consolidation would result in cost savings of approximately
                                    $1.3 million during the first year. Our objective was to
                                    assess the justification and impact of the consolidation.

 Results in Brief                   The workhour cost analysis included in the AMP proposal
                                    was supported, and additional OIG analyses in the
                                    productivity and capacity areas provided confirming
                                    evidence for the consolidation. Specifically, the Postal
                                    Service determined that approximately 42,000 workhours
                                    could be eliminated if outgoing mail processing operations
                                    were transferred from the Pasadena P&DC to the Santa
                                    Clarita and Industry P&DCs.

                                    In reviewing performance data for the three plants, we also
                                    found that there was excess mail processing capacity. The
                                    AMP proposal indicated that the plants will be able to
                                    eliminate two Advanced Facer Canceller Systems through
                                    this consolidation, and our analysis confirmed that the
                                    outgoing mail volume could be processed using less
                                    workhours and equipment.

                                    However, in the development, approval, and implementation
                                    of this AMP, Postal Service management did not always
                                    comply with the processes outlined in Handbook PO-408,1
                                    and as a result, some AMP proposal data was inaccurate,
                                    incomplete, or unsupported. We found discrepancies with
                                    the AMP proposal in the areas of transportation costs, the
                                    number of employees affected, and changes in service
                                    standards.2 Because of these discrepancies, the cost
                                    savings as projected in the AMP may be significantly

1
  Handbook PO-408, Area Mail Processing (AMP) Guidelines, dated May 1995, provided a framework for
consolidating operations in the mail processing network.
2
  Service standards are an expectation by the Postal Service to deliver a piece of mail to its intended destination
within a prescribed number of days, after proper deposit by the customer.



                                                              i
Pasadena, California, Processing and                                                        EN-AR-06-001
 Distribution Center Consolidation


                                     overstated,3 and the service impacts are not fully described.
                                     Additionally, the approval process was not consistently
                                     followed, notifications to stakeholders were not issued in a
                                     timely manner, and implementation of the AMP differed from
                                     the proposal. Finally, supporting documentation for the
                                     AMP proposal was not always available.

                                     Several factors contributed to the inaccuracies in the AMP
                                     data and problems with the approval process. First, the
                                     Postal Service made a significant effort to implement
                                     10 AMP proposals, which included the Pasadena AMP,
                                     during the first part of fiscal year 2006, so that some early
                                     successes would be experienced to support future efforts.
                                     Thus, the AMP progressed through the approval process,
                                     even though some of the analysis had not been finalized.
                                     Additionally, the AMP process was unfamiliar to many
                                     Postal Service employees, especially those in the field
                                     locations. Lastly, although the AMP guidelines required
                                     reviews at various levels of detailed aspects of the AMP
                                     proposal, the reviews did not appear to be as thorough as
                                     required. Documentation of the reviews was limited and
                                     sometimes unavailable.

                                     Producing accurate AMP data and following AMP processes
                                     are very important so that the decisions made by Postal
                                     Service executives are supported and stakeholders can
                                     have confidence that decisions are appropriate. Keeping
                                     stakeholders informed of actions that affect their
                                     constituents is important to gaining support for the Postal
                                     Service’s efforts to consolidate the processing network.

    Postal Service Actions           During our review, Postal Service management stated they
                                     established a cross-functional team to revise Handbook
                                     PO-408. They expect to have an initial draft of these
                                     updated guidelines completed in September 2006.

    Summary of                       We recommended that Postal Service management revise
    Recommendations                  the Pasadena AMP proposal to document all service
                                     standard changes and transportation costs. Additionally, we
                                     recommended that management establish central files for
                                     approved AMP proposals and supporting documentation to
                                     facilitate Post-Implementation Reviews (PIR). Finally, we
                                     recommended that management update AMP policy.

3
    During our review, transportation cost estimates increased by over $550,000 annually.



                                                              ii
Pasadena, California, Processing and                                           EN-AR-06-001
 Distribution Center Consolidation


 Summary of                    Management generally agreed with the findings and
 Management’s                  recommendations in this report. Instead of revising the
 Comments                      Pasadena AMP proposal, management plans to make the
                               necessary changes as part of the PIR process.
                               Management‘s comments in their entirety, are included in
                               Appendix D.

 Overall Evaluation of         Management’s actions taken or planned are responsive to
 Management’s                  the recommendations and should correct the issues
 Comments                      identified in the findings.




                                                iii
Pasadena, California, Processing and                                                                                   EN-AR-06-001
 Distribution Center Consolidation


                                                          INTRODUCTION
   Background                                         The Postal Service network is one of the largest in the
                                                      world, with over 179,000 employees, 675 mail processing
                                                      facilities, 16,750 highway network routes, 214,000
                                                      vehicles, and an operating cost of about $25 billion
                                                      annually. The Postal Service has recognized the need
                                                      for a comprehensive redesign of its processing and
                                                      transportation network. The Postal Service’s Strategic
                                                      Transformation Plan: 2006-2010 described this initiative
                                                      as Evolutionary Network Development (END). The goal
                                                      of END is to create a flexible logistics network that
                                                      reduces costs, increases operational effectiveness, and
                                                      improves consistency of service.

                                                      This realignment of the Postal Service’s domestic network
                                                      is being conducted in response to declines in First-Class
                                                      Mail® volume, increased competition with traditional mail
                                                      products from the private sector, increased automation
                                                      and mail processing by mailers, and shifts in population
                                                      demographics. Despite a recent increase in mail volume,
                                                      the aggregate volume of First-Class Mail declined by
                                                      5 percent from fiscal years (FY) 2001 to 2005. In
                                                      addition, the Postal Service projects that First-Class Mail
                                                      volume will continue to decline. Chart 1 shows these
                                                      trends.

                                                          Chart 1: First-Class Actual (FYs 1999-2005) and
                                                                     Projected (FYs 2006-2008)

                                          104.00


                                          103.00


                                          102.00
                      Volume (billions)




                                          101.00


                                          100.00


                                           99.00


                                           98.00


                                           97.00


                                           96.00


                                           95.00
                                                   1999    2000   2001       2002       2003      2004   2005   2006     2007   2008

                                                                                    Fiscal Year




                                                                         1
Pasadena, California, Processing and                                                                       EN-AR-06-001
 Distribution Center Consolidation



                                         The Postal Service uses Area Mail Processing (AMP)
                                         policy to consolidate mail processing functions and to
                                         eliminate excess capacity, increase efficiency, and better
                                         use resources. The Postal Service defines AMP as the
                                         consolidation of all originating and/or destinating
                                         distribution operations from one or more post offices into
                                         another automated or mechanized facility to improve
                                         operational efficiency and/or service. This process has
                                         been refined over 3 decades as mail processing has
                                         evolved from a manual and mechanized process to one
                                         that is automated.

                                         The Pasadena, Industry and Santa Clarita Processing and
                                         Distribution Centers (P&DC) are located in the Pacific
                                         Area. (See Appendix A for a map of the three plants and
                                         affected ZIP Codes.) Management said they had
                                         considered consolidating outgoing mail processing from
                                         the Pasadena P&DC to the Santa Clarita4 and Industry
                                         P&DCs in prior years. The proposal was reviewed and
                                         approved at the local level in June 2005, and it was
                                         approved by the Vice President, Pacific Area, on July 22,
                                         2005. The proposal was approved by the Senior Vice
                                         President, Operations, on October 7, 2005. The
                                         implementation date for this AMP was subsequently set for
                                         April 9, 2006.

                                         The AMP proposal was for consolidation of outgoing mail5
                                         only. Postal Service management projected that
                                         consolidating outgoing mail processing operations from the
                                         Pasadena P&DC to the Santa Clarita and Industry P&DCs
                                         would result in cost savings of nearly $1.3 million during
                                         the first year. These savings are primarily from labor cost
                                         reductions, which are estimated at slightly over $1.3 million
                                         annually. According to the proposal, service was projected
                                         to improve slightly.

    Objective, Scope, and                At Postal Service management’s request, we reviewed the
    Methodology                          AMP proposal to consolidate outgoing mail processing
                                         operations at the Pasadena P&DC into the Santa Clarita


4
  Santa Clarita P&DC is also known as the Van Nuys P&DC. For consistency, we use Santa Clarita P&DC
throughout this report.
5
  Outgoing mail is sorted within a mail processing facility and dispatched to another facility for additional processing
or delivery.



                                                            2
Pasadena, California, Processing and                                                              EN-AR-06-001
 Distribution Center Consolidation


                                      and Industry P&DCs. Our objective was to assess the
                                      justification and impact of the AMP proposal. We reviewed
                                      applicable network change guidelines, including Handbook
                                      PO-408, Area Mail Processing (AMP) Guidelines, and the
                                      Area Mail Processing (AMP) Communications Plan. We
                                      performed trend analyses of mail volume, workhours, and
                                      productivity for each facility and conducted other analytical
                                      procedures to determine the potential impacts of the
                                      consolidation.

                                      We relied on Postal Service data systems, including the
                                      Breakthrough Productivity Initiative (BPI) website, the
                                      Management Operating Data System (MODS), the Web
                                      Enterprise Information System, and the Enterprise Data
                                      Warehouse (EDW) to analyze mail volumes and
                                      workhours.6 We also used information from the
                                      Transportation Information Management Evaluation
                                      System and the Transportation Contract Support System
                                      to review transportation issues, and the Service Standards
                                      Directory and the Mail Condition Reporting System to
                                      review service implications of the AMP.

                                      We verified key AMP data against Postal Service records
                                      and reports, including planned workhour reductions,
                                      transportation costs, number and positions of employees
                                      affected, and projected service implications to customers.
                                      Because of time constraints, we did not verify all the data
                                      used to support the AMP proposal, but we focused on
                                      those areas that were most likely to result in cost savings
                                      or have a significant impact on key stakeholders. We also
                                      checked the accuracy of data by confirming our analyses
                                      and results with Postal Service managers. Our review was
                                      focused primarily on pre-implementation data, but we also
                                      reviewed some data after implementation. Completing the
                                      consolidation may result in differences from initial
                                      projections for workhour reductions, service standards,
                                      transportation costs, and other projected costs.

                                      We conducted this audit from February through September
                                      2006 in accordance with generally accepted government
                                      auditing standards and included such tests of internal
                                      controls as we considered necessary under the
                                      circumstances. We discussed our observations and
6
 We focused on FY 2004 data to be consistent with data in the AMP proposal, but we also used FY 2005 data in our
analyses.



                                                       3
Pasadena, California, Processing and                                              EN-AR-06-001
 Distribution Center Consolidation


                                   conclusions with management officials and included their
                                   comments where appropriate.

   Prior Audit Coverage            We issued three prior reports, one on the AMP Guidelines
                                   and two reports on the efficiency of mail processing
                                   operations at the Main Post Office in Mansfield, Ohio, and
                                   at the Canton, Ohio, P&DC. The site-specific reviews
                                   included our assessment of pending AMPs. For details of
                                   prior audit coverage, see Appendix B.




                                                4
Pasadena, California, Processing and                                                               EN-AR-06-001
 Distribution Center Consolidation



                                        AUDIT RESULTS
    Workhour,                  The workhour reductions and associated annual cost savings
    Productivity, and          related to workhour reductions included in the AMP proposal
    Capacity Data              were supported and provided adequate justification for the
    Support the                consolidation.
    Consolidation
                                    •   As part of the AMP process, the Postal Service
                                        analyzed the workhours used to process outgoing
                                        mail at the Pasadena P&DC and determined that
                                        approximately 42,000 workhours could be eliminated
                                        if that mail was processed at the Santa Clarita and
                                        Industry P&DCs.

                                    •   To validate this analysis, we selected 15 of the
                                        37 operations listed in the AMP proposal.7 The
                                        workhour savings from these 15 operation numbers
                                        amounted to approximately $940,700 in annual cost
                                        savings, or 97 percent of the cost savings for craft
                                        employees. We matched the data in the AMP
                                        documents to Postal Service MODS and EDW data
                                        and found that Postal Service data adequately
                                        supported all 15 operations.

                                    •   From Postal Service Headquarters, we obtained an
                                        analysis conducted using END simulation models to
                                        determine the feasibility of the Pasadena AMP proposal.
                                        This analysis concluded that the AMP was a feasible
                                        solution for consolidating outgoing mail processing
                                        operations from the Pasadena P&DC to the Santa Clarita
                                        and Industry P&DCs.8

                               U.S. Postal Service Office of Inspector General (OIG) analyses
                               on productivity and capacity provided additional support for the
                               consolidation.

                                    •   We found that the Pasadena P&DC’s outgoing mail
                                        was being transferred to more efficient plants. As of
                                        the end of FY 2004, the Santa Clarita P&DC achieved
                                        77.4 percent of BPI target productivity, and was ranked

7
  These operation numbers included 010, 015, 018, 020, 030, 090C, 110, 110, 138, 210, 271, 320/321, 585, 881, and
891.
8
  We did not audit the END simulation model outputs or verify the analysis provided, nor did we assess how this
specific AMP fit into the overall END strategy.



                                                        5
Pasadena, California, Processing and                                                                                      EN-AR-06-001
 Distribution Center Consolidation


                                                         second out of 35 similar-sized plants. The Industry
                                                         P&DC achieved 79.5 percent of BPI target productivity
                                                         and was ranked third of 35 plants in its category. In
                                                         contrast, the Pasadena P&DC achieved 63.6 percent of
                                                         BPI target productivity and was ranked 31st of 47 plants
                                                         in its category. (See Appendix C for charts comparing
                                                         each plant with similar-sized plants for FY 2004.)

                                 •                       We found that the plants had excess capacity for
                                                         processing outgoing mail, and the consolidation was
                                                         projected to reduce excess machine capacity and
                                                         improve machine utilization. Among the three plants,
                                                         there were 22 Automated Facer Canceller Systems
                                                         (AFCS), which are used to face the mail in the proper
                                                         direction and to cancel postage on outgoing letters. The
                                                         AMP proposal indicated that the plants would be able to
                                                         eliminate two AFCS through this consolidation, and our
                                                         analysis confirmed that the outgoing mail volume could
                                                         be processed using fewer systems. Chart 2 shows
                                                         there is cancellation capacity to process Pasadena
                                                         P&DC’s outgoing mail at the gaining plants.

                                                                Chart 2: Capacity Analysis for the AFCS


                                                         400000000



                                                         350000000



                                                         300000000



                                                         250000000
                                     Mail Volume (TPH)




                                                                                                                                AFCS Capacity
                                                         200000000
                                                                                                                                Current Volume


                                                         150000000



                                                         100000000



                                                          50000000



                                                                0
                                                                     Santa Clarita P&DC   Industry P&DC   Pasadena P&DC




                             Note: Total Pieces Handled (TPH) refers to the number of handlings necessary to
                             distribute each piece of mail from the time of receipt to dispatch, including multiple
                             handlings of each piece.

                                 •                       Moving the Pasadena P&DC’s outgoing mail to the
                                                         Santa Clarita and Industry P&DCs should improve
                                                         overall productivity because mail volumes will be
                                                         processed using fewer resources at more efficient




                                                                              6
Pasadena, California, Processing and                                                                               EN-AR-06-001
 Distribution Center Consolidation


                                                     plants. Chart 3 shows the projected increase in
                                                     combined productivity.

                                 Chart 3: Analysis of Projected Productivity After the AMP
                                                       Consolidation
                                                                      Productivity Analysis

                                                     2,700.0
                                                     2,650.0



                                      TPH/Workhour
                                                     2,600.0
                                                     2,550.0
                                                     2,500.0
                                                     2,450.0
                                                     2,400.0
                                                     2,350.0
                                                               Pasadena    Santa Clarita     Industry       Combined
                                                                P&DC         P&DC             P&DC

                                                                 Productivity Before   Productivity After


                                Note: The productivity rates are computed using TPH for every mail processing
                                workhour. Productivity rates after consolidation are based on FY 2004 mail volumes
                                and workhour data included in the Pasadena AMP.

                                39 U.S.C. Chapter 4, § 403 (a) states, “The Postal Service shall
                                plan, develop, promote, and provide adequate and efficient
                                postal services . . . .” Further, Handbook PO-408 sets forth
                                guidelines to consolidate mail processing operations.9

                                The consolidation should allow the Santa Clarita and Industry
                                P&DCs to better use existing capacity as well as the additional
                                capacity created by relocating processing equipment from the
                                Pasadena P&DC. As a result, consolidating outgoing mail from
                                the Pasadena P&DC to the Santa Clarita and Industry P&DCs
                                should reduce workhours associated with processing the mail
                                as well as improve productivity.




9
 Handbook PO-408 provides a framework for consolidating operations in the mail processing network. It states that
changes should support the Postal Service’s strategic objectives, make optimum use of available resources, and
establish management’s accountability for making decisions.



                                                                  7
Pasadena, California, Processing and                                                 EN-AR-06-001
 Distribution Center Consolidation




 Area Mail                   Postal Service management did not always comply with the
 Processing                  processes outlined in Handbook PO-408, and as a result,
 Processes Were              some data in the AMP proposal was inaccurate, incomplete, or
 Not Consistently            unsupported. We found discrepancies with the data in the AMP
 Followed                    proposal in the areas of transportation cost, number of
                             employees affected, and service commitments.

                             Several factors contributed to the discrepancies in the AMP
                             data and the issues we identified in the approval process.

                                 •     The Postal Service made a significant effort to implement
                                       10 AMP consolidations, which included the Pasadena
                                       AMP, early in FY 2006, so that some early successes
                                       would be experienced to support future efforts. Thus, the
                                       AMP progressed through the approval process, even
                                       though some of the analysis had not been finalized.

                                 •     The district received pressure to complete the
                                       consolidation and had little experience with the AMP
                                       process. Although the AMP process has been in use
                                       for over 30 years, the Postal Service had only used
                                       this process 28 times since 1995. Only four of the
                                       28 consolidations were in the Pacific Area. As a result,
                                       the process is unfamiliar to many Postal Service
                                       employees, especially in field locations.

                                 •     Although AMP guidelines require reviews at various
                                       levels of the AMP proposal, the reviews did not appear
                                       to be thorough. Documentation of these reviews was
                                       limited, and in some cases, unavailable.

                             Ensuring that AMP data is supported and the AMP process is
                             followed is critical to adding credibility to the consolidation
                             process.

 Accuracy of Area            The following sections detail inaccuracies in the AMP proposal
 Mail Processing Data        with transportation costs, employees affected, and changes in
                             service standards.




                                                   8
Pasadena, California, Processing and                                                 EN-AR-06-001
 Distribution Center Consolidation



                             Transportation Costs: District and area management had not
                             finalized transportation costs at the time we conducted our
                             review, but the costs included in the approved AMP proposal
                             appeared to be significantly understated. The additional costs
                             associated with implementation of the AMP proposal were
                             projected at $12,500 annually. However, during our review, the
                             estimated costs had increased by over $550,000 annually.

                             Management stated that at the time the AMP was approved,
                             plant officials had not agreed on the transportation routes and
                             costs were not finalized. Although we received supporting data
                             for the initial $12,500 in the AMP, discussions with management
                             and analysis of the current transportation routes showed that
                             the transportation cost estimate did not match the routes
                             required to transport the mail.

                             Employees Impacted: When the OIG validated employee
                             impact figures in the AMP, we identified some discrepancies.
                             Employee attrition and operational changes between AMP
                             submission and approval, and the complexities of the National
                             Collective Bargaining Agreement may have contributed to these
                             discrepancies.

                                 •     More employees were impacted by the consolidation
                                       than were documented in the AMP proposal. The AMP
                                       listed 85 craft and six executive and administrative
                                       schedule employee losses, while the actual losses were
                                       87 and seven, respectively.

                                 •     The complement reductions at the Pasadena P&DC
                                       were higher than the corresponding declines in
                                       workhours.

                                 •     The number of employees needed to process the mail
                                       transferred to the Industry P&DC may be understated.
                                       AMP documentation indicated that six additional
                                       employees were needed; however, the workhours
                                       transferred indicated that 13 full-time equivalents were
                                       needed to process this mail. As a result, the Industry
                                       P&DC could be understaffed for processing the mail it
                                       received.

                             Changes in Service Standards: When we validated the impact
                             of the AMP consolidation on service standards, we found that



                                                   9
Pasadena, California, Processing and                                                                    EN-AR-06-001
 Distribution Center Consolidation


                                 management did not completely document all changes in
                                 service standards resulting from the consolidation in the AMP
                                 proposal. Chart 4 summarizes changes in service standards.


                                          Chart 4: Analysis of Changes in Service Standards

                                                                AMP                           Service Analysis
                                   MAIL
                                   CLASSES         UPGRADES        DOWNGRADES          UPGRADES         DOWNGRADES
                                   First-Class         3               0                  13                0
                                   Priority            5               0                   5                0
                                   Periodicals         0               0                   5                0
                                   Standard            0               0                  10                4
                                   TOTAL               8               0                  33                4


                                 Note: We completed the service analysis with Postal Service officials using the
                                 Service Standard Directory, which contains service standards between three-digit ZIP
                                 Code Origin and Destination pairs for all classes of mail except Express Mail®. The
                                 Service Standard Directory is updated quarterly and used by internal and external
                                 service performance measurement systems.


                                      •     The AMP documented three service upgrades10 for First-
                                            Class Mail (FCM) and five service upgrades for Priority
                                            Mail®. It also documented no anticipated downgrades in
                                            service standards for other classes of mail.

                                      •     The service analysis identified 33 service upgrades,11
                                            including 25 upgrades not documented in the AMP
                                            proposal, along with four service downgrades for
                                            Standard Mail® where delivery was changed from 3 to
                                            4 days.

                                 Although degradations to service standards were limited,
                                 management needs the correct data for making decisions as
                                 the AMP is approved. Additionally, external stakeholders are
                                 concerned about the effects of consolidations on service to
                                 customers, and accurate analysis in the area of service
                                 standards is critical to building effective stakeholder relations.

 Adherence to Key                The following sections detail processing issues with the
 Processes                       approval of the AMP proposal, notification of stakeholders,
                                 implementation of the AMP, and maintenance of supporting

10
   Service standard upgrades are an expectation that the Postal Service will deliver mail to its intended destination
more quickly.
11
   Current AMP policy only requires a narrative for any negative service standard impact to all classes of mail other
than First-Class Mail and Priority Mail.



                                                          10
Pasadena, California, Processing and                                                 EN-AR-06-001
 Distribution Center Consolidation


                             documentation. Handbook PO-408 provides guidance for
                             preparing, approving, and implementing an AMP consolidation
                             proposal. We used this guidance to determine whether key
                             processes were followed in the Pasadena AMP consolidation.

                             Approval of the AMP Proposal: The signature page of the
                             AMP proposal documents approvals by the initiating offices in
                             June 2005, the Pacific Area Vice President on July 22, 2005,
                             and headquarters on October 7, 2005. The AMP proposal was
                             changed as it made its way through the approval process;
                             however, we could not determine which changes had been
                             reviewed and approved by various levels of management.

                                   •   The most significant change was in transportation
                                       costs. District and area officials stated that a
                                       transportation cost analysis supporting the $12,500
                                       in the approved AMP was not developed until early
                                       October 2005, while the proposal was at headquarters
                                       awaiting approval. Earlier versions of the AMP
                                       proposal projected transportation costs to increase by
                                       over $500,000.

                                   •   Signatures of some key officials, including the Industry
                                       P&DC Manager, the District Manager, and the Senior
                                       Plant Manager, were missing from the AMP proposal,
                                       which the Senior Vice President, Operations, approved
                                       on October 7, 2005. Therefore, we could not determine
                                       if these officials had the opportunity to review details in
                                       the AMP proposal or the changes made to figures
                                       developed earlier. We also could not determine if these
                                       officials had the opportunity to review and approve
                                       changes before final approval by headquarters.

                                   •   The headquarters review and approval exceeded
                                       70 days.

                             AMP Handbook PO-408 indicates that if an AMP proposal is not
                             approved by any of the successive individuals, the reason must
                             be noted at the bottom of the sheet and the proposal returned
                             to the initiator. The proposal also requires headquarters review
                             and approval within 30 days.

                             The Pasadena AMP proposal was changed without rejecting
                             and reinitiating the process, and signatures of key officials were
                             missing from the document. The AMP policy did not outline the



                                                 11
Pasadena, California, Processing and                                                     EN-AR-06-001
 Distribution Center Consolidation



                                    steps to be taken when changes are made during the approval
                                    process.

                                    Notification to Stakeholders: Letters notifying key stakeholders
                                    of intent to conduct an AMP feasibility study were issued late.
                                    These included letters to members of Congress and union
                                    officials. The letters were sent in early September 2005, over
                                    2 months after the AMP proposal had been approved by the
                                    district and over 1 month after it had been approved at the area
                                    level. At the time these notifications of intent were issued, the
                                    approval process of the AMP proposal was almost complete.
                                    The AMP was approved by headquarters on October 7, 2005,
                                    approximately 1 month after the notifications about the
                                    feasibility study.12

                                    The delays in notifying key stakeholders occurred because on
                                    June 23, 2005, headquarters issued an e-mail to the field
                                    temporarily suspending notifications. The notifications of
                                    intent for the Pasadena AMP were eventually issued after
                                    headquarters issued a draft AMP Communications Plan. At that
                                    time, management used notification templates from the AMP
                                    Communications Plan showing that the Postal Service had
                                    initiated a review of mail processing operations in Pasadena
                                    and implied that the process was beginning.

                                    Handbook PO-408 states that a vital aspect of implementing an
                                    AMP is timely, clear communication with all parties. The AMP
                                    Communications Plan, which was issued in September 2005
                                    and again in February 2006, added communication
                                    requirements and provided templates to assist in notification.

                                    Delays in issuing notifications and implying that the reviews
                                    were beginning when they had already been approved at the
                                    local level negatively impacted stakeholder relations. Although
                                    we understand that this occurred because the notifications used
                                    were taken directly from a guidance document, the templates
                                    should have been modified to more accurately reflect the state
                                    of the approval process for this AMP.

                                    Implementation of the AMP: Implementation of the Pasadena
                                    AMP differed from approved plans and resulted in additional
                                    costs. The AMP proposal documented plans to move

12
     AMP policy indicated that a feasibility study could take up to 6 months.



                                                             12
Pasadena, California, Processing and                                                   EN-AR-06-001
 Distribution Center Consolidation


                             approximately 71 percent of the outgoing mail from the
                             Pasadena P&DC to the Santa Clarita P&DC and the remaining
                             29 percent to the Industry P&DC. However, in November 2005,
                             when implementation began, a large new piece of equipment,
                             the Automated Package Processing System (APPS), was
                             also about to be installed in the Santa Clarita P&DC. This
                             installation required significant changes to the workroom floor
                             and interruptions in the normal flow of the mail at that plant. As
                             a result, rather than place the implementation on hold until the
                             Santa Clarita P&DC was ready to receive the mail, area
                             management transferred most outgoing mail from the Pasadena
                             P&DC to the Industry P&DC on an interim basis. The transfer
                             occurred in November 2005.

                             Movement of the mail to the Industry P&DC on an interim basis
                             resulted in additional transportation and labor costs.

                                 •     Moving collection mail by direct routes to the Industry
                                       P&DC was projected to increase transportation costs by
                                       over $400,000 annually.

                                 •     The Industry P&DC incurred additional staffing costs as
                                       approximately 50 casual employees were hired to
                                       process mail transferred from the Pasadena P&DC. It is
                                       difficult to predict the share of these costs that would not
                                       have been incurred had the mail stayed at the Pasadena
                                       P&DC, but we are certain that some additional costs can
                                       be directly attributed to moving the mail to the Industry
                                       P&DC on an interim basis.

                             The AMP proposal did not reflect any of the costs associated
                             with operational changes to AMP implementation. Because
                             these interim costs were directly related to the AMP, we believe
                             an addendum to the AMP should have been prepared and
                             submitted to headquarters, and the costs should have been
                             tracked in the AMP files for future analysis as part of the
                             Post-Implementation Review (PIR) of the AMP.

                             In discussions with management, we learned that they
                             temporarily moved the mail from the Pasadena P&DC to the
                             Industry P&DC in an attempt to save processing costs.
                             Although we understand it was important to implement the AMP
                             proposals in a timely manner, we believe that extenuating
                             circumstances such as the installation of the APPS machine in




                                                   13
Pasadena, California, Processing and                                                EN-AR-06-001
 Distribution Center Consolidation



                             the Santa Clarita P&DC should be considered when
                             establishing implementation dates.

                             Supporting Documentation: Some supporting data for the AMP
                             was not available during our review, and other data was not
                             centrally located.

                                   •   Data and analyses supporting changes in service
                                       standards, average daily volumes of mail affected, and
                                       workhour changes were not available.

                                   •   Other documentation that we were able to obtain was
                                       held by various employees in multiple locations and
                                       was not kept in a central file for future use.

                             Handbook PO-408 requires that supporting documentation be
                             kept on file until after the PIR is complete, but did not specify
                             the location for this data.

                             Maintenance of documentation is important because the
                             required PIR to determine whether the AMP consolidation
                             achieved expectations relies heavily on the documentation from
                             the initial proposal. Without this supporting documentation, the
                             PIR may be difficult to complete. Additionally, supporting
                             documentation should be centrally maintained so the Postal
                             Service can address questions raised by internal and external
                             stakeholders and oversight officials.

 Postal Service              During our review, Postal Service management stated they
 Actions                     established a cross-functional team to revise Handbook
                             PO-408. They expect to have an initial draft of these updated
                             guidelines completed in September 2006.

 Recommendations             We recommend that the Manager, Van Nuys District, in
                             conjunction with the Acting Vice President, Pacific Area:

                             1. Revise the Area Mail Processing proposal to accurately
                                document all service standard changes and transportation
                                costs.

                             2. Establish central files for approved Area Mail Processing
                                proposals and supporting documentation to facilitate Post-
                                Implementation Reviews.




                                                 14
Pasadena, California, Processing and                                              EN-AR-06-001
 Distribution Center Consolidation


                             We recommend that the Vice President, Network Operations
                             Management:

                             3. Update Area Mail Processing (AMP) Guidelines to address:

                                 •     Requirements for documenting service standard
                                       changes for all mail classes in an Area Mail Processing
                                       proposal.

                                 •     Requirements and methodology for reviewing Area Mail
                                       Processing proposals at the headquarters level to
                                       ensure compliance with policy prior to approval.

                                 •     Requirements and methodology for reviewing Area Mail
                                       Processing proposals at the area level.

                                 •     Requirements for maintaining Area Mail Processing
                                       proposals and supporting documentation.

                                 •     Documentation of local and area approvals when
                                       changes are made to an Area Mail Processing
                                       proposal.

                                 •     Process for revising cost estimates when substantive
                                       changes occur during implementation of an Area Mail
                                       Processing proposal.

 Management’s                Management generally agreed with the finding and
 Comments                    recommendations in this report. Instead of revising the
                             Pasadena AMP proposal, management plans to make the
                             necessary changes as part of the PIR process. Pacific Area
                             management will also collect supporting AMP documentation
                             during the PIRs and maintain a central file. In addition, the
                             AMP Guidelines will be revised to reflect changes to the AMP
                             process, and several of these changes have already been
                             implemented.

 Evaluation of               Management’s comments are responsive to the audit finding
 Management’s                and recommendations. Management’s actions, taken or
 Comments                    planned, should correct the issues identified in the report.




                                                 15
Pasadena, California, Processing and                  EN-AR-06-001
 Distribution Center Consolidation




                                       APPENDIX A

                                 PLANT BOUNDARY MAP




                                           16
Pasadena, California, Processing and                                       EN-AR-06-001
 Distribution Center Consolidation


                                       APPENDIX B

                            PRIOR AUDIT COVERAGE
OIG, Area Mail Processing Guidelines (Report Number NO-AR-06-001,
December 21, 2005) found the AMP process was fundamentally sound,
appeared credible, and provided a PIR process to assess results from mail
processing consolidations. However, management of the AMP process and
guidance could be improved. AMPs were not processed or approved in a timely
manner, PIRs were not always conducted, and stakeholders’ resistance affected
the approval process. The report recommended the Postal Service update AMP
guidance, comply with policy, and address stakeholder resistance. Management
agreed with the findings and recommendations.

OIG, Efficiency Review of the Mansfield, Ohio, Main Post Office (Report Number
NO-AR-05-004, December 8, 2004) found the Postal Service could increase
operational efficiency at the Mansfield Main Post Office (MPO) by reducing
24,000 mail processing workhours, which would allow the Mansfield MPO to
achieve 90 percent of targeted goals. This reduction is based on the assumption
that mail volume will not significantly change from FY 2003 levels and could
produce a cost avoidance of approximately $7.6 million based on labor savings
over 10 years. We recommended the Manager, Northern Ohio District, reduce
mail processing operations at the Mansfield MPO by 52,000 workhours based on
FY 2003 workhour usage. We also recommended consolidating outgoing mail
operations into the Akron P&DC, as the Eastern Area AMP study recommended.
Management agreed, and the actions planned were responsive to the issues
identified.

OIG, Efficiency Review of the Canton, Ohio, Processing and Distribution
Facility (Report Number NO-AR-05-013, September 22, 2005) found the Postal
Service could increase operational efficiency at the Canton P&DF by reducing
mail processing workhours by 202,000. This reduction is based on the
assumption that mail volume will not significantly change from FY 2004 levels
and could produce a cost avoidance of approximately $64 million based on labor
savings over 10 years. We recommended the Manager, Northern Ohio District,
reduce mail processing operations at the Canton P&DF by 93,000 workhours
based on FY 2004 workhour usage. We also recommended consolidating
outgoing mail operations into the Akron P&DC, thereby saving an additional
109,000 workhours. Management agreed, and the actions planned were
responsive to the issues identified.




                                           17
Pasadena, California, Processing and                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               EN-AR-06-001
 Distribution Center Consolidation




                                                                                                                                                                                                                                      APPENDIX C
                                                                                                                              FISCAL YEAR 2004 GROUP ONE PLANTS
                                                                                                                            PERCENTAGE PERFORMANCE ACHIEVEMENT




                                         9 0 .0 %

                                         8 0 .0 %

                                         7 0 .0 %
               Performance Achievement




                                         6 0 .0 %

                                         5 0 .0 %

                                         4 0 .0 %

                                         3 0 .0 %

                                         2 0 .0 %

                                         1 0 .0 %

                                          0 .0 %
                                                                                                                                            QUEENS PDC

                                                                                                                                                         KCMO PDC

                                                                                                                                                                    MINNEAPOLIS PDC




                                                                                                                                                                                                                  MID-ISLAND PDC

                                                                                                                                                                                                                                   INDIANAPOLIS PDC

                                                                                                                                                                                                                                                      LOS ANGELES PDC




                                                                                                                                                                                                                                                                                                                                                                                          OAKLAND PDC

                                                                                                                                                                                                                                                                                                                                                                                                        COLUMBUS PDC

                                                                                                                                                                                                                                                                                                                                                                                                                       DVD BLDG PDC



                                                                                                                                                                                                                                                                                                                                                                                                                                                      DENVER PDC

                                                                                                                                                                                                                                                                                                                                                                                                                                                                   SAN FRANCISCO PDC




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     CHICAGO PDC



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 PHILADELPHIA PDC
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        DALLAS PDC




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    CLEVELAND PDC
                                                                                      RGARET SELLERS PDC

                                                                                                           SACRAMENTO PDC

                                                                                                                            SANTA ANA PDC




                                                                                                                                                                                      HOUSTON PDC

                                                                                                                                                                                                    PHOENIX PDC




                                                                                                                                                                                                                                                                                                                          TAMPA PDC



                                                                                                                                                                                                                                                                                                                                                     CAROL STREAM PDC

                                                                                                                                                                                                                                                                                                                                                                        ST LOUIS MO PDC
                                                                                                                                                                                                                                                                                           BALTIMORE PDC

                                                                                                                                                                                                                                                                                                           PORTLAND PDC




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     CINCINNATI PDC

                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      PALATINE PDC
                                                    SEATTLE PDC

                                                                  SANTA CLARITA PDC




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       PITTSBURGH PDC




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   DETROIT PDC
                                                                                                                                                                                                                                                                        NORTH TEXAS PDC




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    W YORK MORGAN PDC
                                                                                                                                                                                                                                                                                                                                                                                                                                      MILWAUKEE PDC
                                                                                                                                                                                                                                                                                                                                      FT WORTH PDC




Note: Mail processing facilities are divided into seven groups according to mail volume; with Group One plants being the largest and Group Seven plants being
                                             nd
the smallest. Santa Clarita P&DC ranked 2 out of 35 Group One plants in performance achievement to BPI target.
Source: Enterprise Data Warehouse




                                                                                                                                                                                                                                                                                          18
                                                                                                                                                                                                    Percentage Performance Achievement




                                                                                                                                                                                          0 .0 %
                                                                                                                                                                                                   1 0 .0 %
                                                                                                                                                                                                              2 0 .0 %
                                                                                                                                                                                                                         3 0 .0 %
                                                                                                                                                                                                                                    4 0 .0 %
                                                                                                                                                                                                                                               5 0 .0 %
                                                                                                                                                                                                                                                          6 0 .0 %
                                                                                                                                                                                                                                                                     7 0 .0 %
                                                                                                                                                                                                                                                                                8 0 .0 %
                                                                                                                                                                                                                                                                                           9 0 .0 %
                                                                                                                                                                                                                                                                                                      1 0 0 .0 %
                                                                                                                                                                     SALT LAKE CITY PDC

                                                                                                                                                                          SAN JOSE PDC




     Source: Enterprise Data Warehouse
                                                                                                                                                                                                                                                                                                                                                                                   Distribution Center Consolidation




     performance achievement to BPI target.
                                                                                                                                                                                                                                                                                                                                                                                  Pasadena, California, Processing and




                                                                                                                                                                          INDUSTRY PDC

                                                                                                                                                                         LAS VEGAS PDC

                                                                                                                                                                     OKLAHOMA CITY PDC

                                                                                                                                                                     AN BERNARDINO PDC

                                                                                                                                                                       LONG BEACH PDC

                                                                                                                                                                            AUSTIN PDC

                                                                                                                                                                             MIAMI PDC

                                                                                                                                                                         NASHVILLE PDC

                                                                                                                                                                     SOUTHEASTERN PDC

                                                                                                                                                                            OMAHA PDC

                                                                                                                                                                       SAN ANTONIO PDC




19
                                                                                                                                                                      GRAND RAPIDS PDC

                                                                                                                                                                         LOUISVILLE PDC

                                                                                                                                                                       BIRMINGHAM PDC

                                                                                                                                                                         ROYAL OAK PDC

                                                                                                                                                                            MARINA PDC

                                                                                                                                                                      JACKSONVILLE PDC
                                                                                                                                                                                                                                                                                                                                                         APPENDIX C - continued




                                                                                                                                                                          MEMPHIS PDC

                                                                                                                                                                           ATLANTA PDC
                                                                                                                                                                                                                                                                                                                     FISCAL YEAR 2004 GROUP TWO PLANTS




                                                                                                                                                                     UTH SUBURBAN PDC
                                                                                                                                                                                                                                                                                                                   PERCENTAGE PERFORMANCE ACHIEVEMENT




                                                                                                                                                                        N HOUSTON PDC

                                                                                                                                                                        DES MOINES PDC

                                                                                                                                                                         SO JERSEY PDC

                                                                                                                                                                     WESTCHESTER PDC

                                                                                                                                                                         BROOKLYN PDC

                                                                                                                                                                        CHARLOTTE PDC

                                                                                                                                                                        SAINT PAUL PDC

                                                                                                                                                                      NORTHERN VA PDC

                                                                                                                                                                         HARTFORD PDC

                                                                                                                                                                          BUFFALO PDC

                                                                                                                                                                           BOSTON PDC
     Note: Industry P&DC is classified as a Group Two plant; the second largest plant category based on mail volume. It ranked third out of 35 Group Two plants in
                                                                                                                                                                                                                                                                                                                                                                                                     EN-AR-06-001




                                                                                                                                                                         RICHMOND PDC

                                                                                                                                                                      NEW ORLEANS PDC
                                                                                                                                                                                                               Percentage Performance Achievement




                                                                                                                                                                                           0 .0 %
                                                                                                                                                                                                    1 0 .0 %
                                                                                                                                                                                                               2 0 .0 %
                                                                                                                                                                                                                          3 0 .0 %
                                                                                                                                                                                                                                     4 0 .0 %
                                                                                                                                                                                                                                                5 0 .0 %
                                                                                                                                                                                                                                                           6 0 .0 %
                                                                                                                                                                                                                                                                      7 0 .0 %
                                                                                                                                                                                                                                                                                 8 0 .0 %
                                                                                                                                                                                                                                                                                            9 0 .0 %
                                                                                                                                                                                                                                                                                                       1 0 0 .0 %
                                                                                                                                                                           SPOKANE PDC
                                                                                                                                                                              BOISE PDC
                                                                                                                                                                        SOUTH BEND PDC
                                                                                                                                                                        GREENVILLE PDC
                                                                                                                                                                            FRESNO PDC




     Source: Enterprise Data Warehouse
                                                                                                                                                                                                                                                                                                                                                                                     Distribution Center Consolidation




                                                                                                                                                                        FOX VALLEY PDC
                                                                                                                                                                                                                                                                                                                                                                                    Pasadena, California, Processing and




                                                                                                                                                                     CHATTANOOGA PDC
                                                                                                                                                                              GARY PDC
                                                                                                                                                                         LANCASTER PDC
                                                                                                                                                                       SHREVEPORT PDC
                                                                                                                                                                         MANASOTA PDC
                                                                                                                                                                           JACKSON PDC
                                                                                                                                                                         LEXINGTON PDC
                                                                                                                                                                       BAKERSFIELD PDC
                                                                                                                                                                             MACON PDC
                                                                                                                                                                              RENO PDC
                                                                                                                                                                         NORTH BAY PDC
                                                                                                                                                                          SYRACUSE PDC
                                                                                                                                                                            TACOMA PDC




20
                                                                                                                                                                     COLORADO SPRINGS
                                                                                                                                                                      BATON ROUGE PDC
                                                                                                                                                                        ST PETERSBURG
                                                                                                                                                                            TUCSON PDC
                                                                                                                                                                            NORTHWEST
                                                                                                                                                                      FAYETTEVILLE PDC
                                                                                                                                                                                                                                                                                                                                                           APPENDIX C – continued




                                                                                                                                                                           LANSING PDC
                                                                                                                                                                      MONTGOMERY PDC
                                                                                                                                                                            DAYTON PDF
                                                                                                                                                                                                                                                                                                                      FISCAL YEAR 2004 GROUP FOUR PLANTS




                                                                                                                                                                         BROCKTON PDC
                                                                                                                                                                                                                                                                                                                    PERCENTAGE PERFORMANCE ACHIEVEMENT




                                                                                                                                                                             AKRON PDC
                                                                                                                                                                          PASADENA PDC
                                                                                                                                                                        KALAMAZOO PDC
                                                                                                                                                                            WICHITA PDC
                                                                                                                                                                      WEST NASSAU PDC
                                                                                                                                                                         STAMFORD PDC
                                                                                                                                                                          ROANOKE PDC
                                                                                                                                                                       WEST JERSEY PDC
                                                                                                                                                                     LEHIGH VALLEY PDC
                                                                                                                                                                         MONMOUTH PDC
                                                                                                                                                                         KNOXVILLE PDC
                                                                                                                                                                           TRENTON PDC
                                                                                                                                                                          SAN JUAN PDC
                                                                                                                                                                             BRONX PDC
                                                                                                                                                                                                                                                                                                                                                                                                       EN-AR-06-001




                                                                                                                                                                        MID-HUDSON PDC
     Note: Pasadena P&DC is classified as a Group Four or medium-sized plant. It ranked 31st out of 47 Group Four plants in performance achievement of BPI target.




                                                                                                                                                                     SPRINGFIELD PDC (B)
                                                                                                                                                                       MANCHESTER PDC
                                                                                                                                                                       WASHINGTON PDC
Pasadena, California, Processing and               EN-AR-06-001
 Distribution Center Consolidation



               APPENDIX D. MANAGEMENT’S COMMENTS




                                       21
Pasadena, California, Processing and        EN-AR-06-001
 Distribution Center Consolidation




                                       22
Pasadena, California, Processing and        EN-AR-06-001
 Distribution Center Consolidation




                                       23
Pasadena, California, Processing and        EN-AR-06-001
 Distribution Center Consolidation




                                       24
